FDIC’s IT Contingency Planning Program

(Report No. 04-038, September 22, 2004)

Summary

This report presents the results of an audit by International Business Machines (IBM)
Business Consulting Services (hereafter referred to as IBM), an independent professional
services firm engaged by the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General (OIG) to support its efforts to satisfy reporting requirements related to
the Federal Information Security Management Act (FISMA).

The objective of the audit was to determine whether the FDIC has an adequate
Information Technology (IT) Contingency Planning Program. The scope of IBM’s audit
focused on the adequacy of the FDIC’s policies, procedures, and tools for contingency
planning. IBM concluded that the FDIC had made progress since the OIG’s 2003
FISMA evaluation. However, improvements are needed to ensure that FDIC data can be
restored in a timely manner.

Recommendations

IBM made three recommendations to the FDIC’s Chief Information Officer and Director,
Division of Information Resources Management (DIRM), to improve the FDIC’s
contingency planning program.

Management Response

DIRM has agreed to take corrective actions that adequately address the three
recommendations, which are resolved but will remain undispositioned and open for
reporting purposes until we have determined that agreed-to corrective actions have been
completed and are effective.

This report contains sensitive information regarding information security. Accordingly,
we have not made, nor do we intend to make, public release of the specific contents of the
report.
